Case: 19-16268, 06/09/2020, ID: 11715672, DktEntry: 19-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETRA MARTINEZ; STANLEY
ATKINSON,

FILED
JUN 9 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16268
D.C. No. 5:18-cv-02869-LHK

Plaintiffs-Appellants,
MEMORANDUM*

v.

AMERICA’S WHOLESALE LENDER,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Lucy H. Koh, District Judge, Presiding
Submitted June 2, 2020**
Before:

LEAVY, PAEZ, and BENNETT, Circuit Judges.

Petra Martinez and Stanley Atkinson appeal pro se from the district court’s
judgment dismissing their diversity action alleging state law claims arising out of
foreclosure proceedings. We have jurisdiction under 28 U.S.C. § 1291. We
review de novo a district court’s dismissal based on res judicata. Stewart v. U.S.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
la

Case: 19-16268, 06/09/2020, ID: 11715672, DktEntry: 19-1, Page 2 of 3

Bancorp, 297 F.3d 953, 956 (9th Cir. 2002). We affirm.
The district court properly determined that the requirements for diversity
jurisdiction were met, as the amount in controversy was over $75,000.00 and all
parties were citizens of different states. See 28 U.S.C. § 1332(a), (c)(1) (setting
forth requirements of diversity jurisdiction and explaining that for purposes of
diversity jurisdiction, “a corporation shall be deemed to be a citizen of every State
... by which it has been incorporated and of the State ... where it has its
principal place of business”); Hertz Corp. v. Friend, 559 U.S. 77, 80 (2010)
(explaining that a corporation’s “principal place of business” is “the place where
the corporation’s high level officers direct, control, and coordinate the
corporation’s activities”).
The district court properly dismissed plaintiffs’ action as barred by the
doctrine of res judicata. See Giles v. Gen. Motors Acceptance Corp., 494 F.3d 865,
884 (9th Cir. 2007) (in diversity cases where only substantive state law is at issue
“we apply the preclusion law that the [state court which issued the first judgment]
would apply”); Mycogen Corp. v. Monsanto Co., 51 P.3d 297, 306-07 (Cal. 2002)
(California’s doctrine of res judicata).
We reject as meritless plaintiffs’ contention that defendants committed
“fraud upon the court.”
We do not consider matters not specifically and distinctly raised and argued

2a

19-16268

Case: 19-16268, 06/09/2020, ID: 11715672, DktEntry: 19-1, Page 3 of 3

in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
All pending requests are denied.
AFFIRMED.

3a

19-16268

Case 5:18-cv-02869-LHK Document 57 Filed 06/12/19 Page 1 of 1

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10
SAN JOSE DIVISION
11
ts 2a
§ &
O £Od

12

PETRA MARTINEZ, et al.,
Plaintiffs,

13

o r
■c

14

Q o
to -n

15

AMERICA'S WHOLESALE LENDER,

+-■ LJ

16

Defendant.

Case No. 18-CV-02869-LHK
JUDGMENT

v.

tS o

2OJ ’X
ts

CO M

tj

a0)

<U
.+3 J3

17

£

18

On June 12, 2019, the Court dismissed Plaintiffs’ complaint with prejudice. ECF No. 56.

19

Accordingly, the Clerk shall enter judgment in favor of Defendant. The Clerk shall close the file.

20

IT IS SO ORDERED.

21

Dated: June 12, 2019

a ti
o

22
LUCYHlfoH
United States District Judge

23
24
25
26
27
28

4a
Case No. 18-CV-02869-LHK
JUDGMENT

Case 5:18-cv-02869-LHK Document 56 Filed 06/12/19 Page 1 of 4

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10
SAN JOSE DIVISION
11
cd

ri
9 £
.a u
&
C/3

tM
O

Q t3

12

PETRA MARTINEZ, et al.,
Plaintiffs,

13
14

AMERICA'S WHOLESALE LENDER,

2 Q
£
<D <D

16

Defendant.

£

18

CO M

IS
£ o

ORDER DISMISSING PLAINTIFFS’
COMPLAINT WITH PREJUDICE;
DENYING PLAINTIFFS’ REQUEST TO
HOLD DEFENDANT’S ATTORNEYS IN
CONTEMPT

v.

15

c/3

& to

Case No. 18-CV-02869-LHK

Re: Dkt. Nos. 53, 54, 55

17
On October 3, 2018, the Court granted Defendant America’s Wholesale Lender’s

19

(“Defendant”) motion to dismiss Plaintiffs’ Petra Martinez and Stanley Atkinson (“Plaintiffs”)

20

complaint with prejudice. ECF No. 40. On October 3, 2018, the Court entered judgment in favor

21

of Defendant. ECF No. 41. On October 23, 2018, Plaintiffs appealed this Court’s October 3,

22

2018 order dismissing Plaintiffs’ complaint to the Ninth Circuit Court of Appeals. ECF No. 44.

23

On March 19, 2019, the Ninth Circuit vacated this Court’s order dismissing Plaintiffs’

24

complaint and remanded for further proceedings because the Ninth Circuit was “unable on this

25

record to make a determination as to whether diversity jurisdiction existed.” ECF No. 50 at 2.

26

Specifically, the Ninth Circuit observed that although Defendant represented on appeal that

27
28

5a
Case No. 18-CV-02869-LHK
ORDER DISMISSING PLAINTIFFS’ COMPLAINT WITH PREJUDICE; DENYING PLAINTIFFS’ REQUEST
TO HOLD DEFENDANT’S ATTORNEYS IN CONTEMPT

Case 5:18-cv-02869-LHK Document 56 Filed 06/12/19 Page 2 of 4

1

America’s Wholesale Lender is a “fictitious business name used by Countrywide Home Loans,

2

Inc.,” the record includes no information about Countrywide’s state of incorporation or principal

3

place of business. Id. The Ninth Circuit’s mandate issued on April 10, 2019. ECF No. 51.

4

On April 11, 2019, the Court ordered the parties to file by May 2, 2019 three-page briefs

5

“regarding whether this Court has subject matter jurisdiction over the action.” ECF No. 52. On

6

May 2, 2019, the parties each filed briefs.1 ECF Nos. 53, 54. On May 8, 2019, Plaintiffs filed a

7

second unauthorized brief with duplicative arguments. See ECF No. 55. The Court now

8

addresses whether the Court has subject matter jurisdiction over the instant action.
A. Legal Standard

9

Defendant originally removed this case from California Superior Court for the County of

10
11

Monterey. ECF No. 1. A suit may be removed from state court to federal court only if the federal

12

court would have had subject matter jurisdiction over the case. 28 U.S.C. § 1441(a); see

13

Caterpillar Inc. v. Williams, 482 U.S. 386, 392 (1987). If it appears at any time before final

■a ui

i4

judgment that the federal court lacks subject matter jurisdiction, the federal court must remand the

Q .£

15

action to state court. 28 U.S.C. § 1447(c).

C4

£O <8e
.22 °

8 S

|Q
0)

<u

jg t:
P J2

£

For federal subject matter jurisdiction to exist, a case must either involve diversity of

16

xi 6

17

citizenship between the parties or involve a claim arising under federal law. See Wayne v. DHL

18

Worldwide Express, 294 F.3d 1179, 1183 n.2 (9th Cir. 2002). Under 28 U.S.C. § 1332(a)(1),

19

federal courts have diversity jurisdiction over civil actions “where the matter in controversy

20

exceeds the sum or value of $75,000 ... and is between ... citizens of different States.” 28

21

U.S.C. § 1332. The statute “applies only to cases in which the citizenship of each plaintiff is

22

diverse from the citizenship of each defendant.” Caterpillar Inc. v. Lewis, 519 U.S. 61, 68 (1996).

23

B. Analysis

24

Defendant removed the case to federal court on the basis of diversity jurisdiction. See ECF

25

No. 1 at 2. Neither party disputes that at least $75,000 is in controversy. Defendant’s loan to

26
27

i

28

Case No. 18-CV-02869-LHK
ORDER DISMISSING PLAINTIFFS’ COMPLAINT WITH PREJUDICE; DENYING PLAINTIFFS’ REQUEST
TO HOLD DEFENDANT’S ATTORNEYS IN CONTEMPT

Plaintiffs’ brief exceeded the authorized page limit.
6a

Case 5:18-cv-02869-LHK Document 56 Filed 06/12/19 Page 3 of 4

1

Plaintiffs, which Plaintiffs wish to void, was for $1.5 million. ECF No. 1, Ex. 1 at 8 (request to

2

void promissory note), id., Ex. B (promissory note in the amount of $1.5 million). Nor is

3

Plaintiffs’ state of citizenship at issue. Plaintiffs allege in their complaint that they reside in

4

Salinas, California, and the cover sheet to their complaint lists their residence as Salinas,

5

California. ECF No. 1, Ex. 1 at 1-2, 5.

6

On remand, Defendant has carried its burden to show that Defendant is not a citizen of

7

California for purposes of diversity jurisdiction, and that diversity of citizenship thus exists.

8

Defendant explains that America’s Wholesale Lender was a trade name formerly used by

9

Countrywide Home Loans, Inc., and that Defendant’s attorney “mistakenly appeared on behalf of

10

America’s Wholesale Lender without including the successor entity, Countrywide Home Loans,

11

Inc.” ECF No. 54 at 1. Defendant further states: “Countrywide Home Loans, Inc. is no longer

a

12

doing business as America’s Wholesale Lender.” Id. at 2. Defendant also contends that

.5 £

13

Countrywide is diverse from Plaintiffs because Countrywide is not a citizen of California. Id.

I a
C 3
-4-^

au
V3

i4

s O

15

state by which it has been incorporated and of the State or foreign state where it has its principal

16

place of business.” 28 U.S.C. § 1332(c)(1). As set forth below, Defendant’s submissions show

17

that Countrywide is not incorporated in California and has its principal place of business in North

18

Carolina, and is thus diverse from Plaintiffs.

H

3 tS
-S Q
<D

For purposes of diversity jurisdiction, a corporation is “a citizen of every State and foreign

O

a

<D

£ 5
£

19

First, Defendant submitted Countrywide’s registration with the California Secretary of

20

State as a foreign corporation, which demonstrates that Countrywide is not incorporated in

21

California. ECF No. 54, Ex. A. If Countrywide were incorporated in California, Countrywide

22

would not register with the California Secretary of State as a foreign corporation.

23

Second, Countrywide’s registration as a foreign corporation shows that Countrywide has

24

its principal place of business in North Carolina. Per the registration, Countrywide’s mailing

25

address is 150 N. College St., Charlotte, North Carolina. Ex. A. Countrywide’s Chief Executive

26

Officer and Chief Financial Officer are both located at the same College St. address in Charlotte,

27
28

7a
Case No. 18-CV-02869-LHK
ORDER DISMISSING PLAINTIFFS’ COMPLAINT WITH PREJUDICE; DENYING PLAINTIFFS’ REQUEST
TO HOLD DEFENDANT’S ATTORNEYS IN CONTEMPT

Case 5:18-cv-02869-LHK Document 56 Filed 06/12/19 Page 4 of 4

v.

1

North Carolina. Id. Thus, because a corporation’s principal place of business under 28 U.S.C. §

2

1332(c)(1) is “the place where a corporation’s officers direct, control, and coordinate the

3

corporation’s activities,” Hertz Corp. v. Friend, 559 U.S. 77, 92-93 (2010), Countrywide has its

4

principal place of business in North Carolina for diversity jurisdiction purposes.

5

Accordingly, diversity of citizenship exists because Plaintiffs are citizens of California.

6

Plaintiffs do not argue or submit evidence that Countrywide (or America’s Wholesale Lender, for

7

that matter) is a citizen of California. ECF No. 53 at 4. Thus, Plaintiffs fail to rebut Defendant’s

8

showing that Countrywide is not a citizen of California.

9

Therefore, the Court concludes that the parties are diverse and that the Court may exercise

10

subject matter jurisdiction over the case. Because jurisdiction was proper when the Court entered

11

its order dismissing Plaintiffs’ complaint with prejudice on October 3, 2018, and because the

12

Ninth Circuit did not reach the merits of that dismissal order, the Court again dismisses Plaintiffs’

13

complaint with prejudice for the reasons stated in the Court’s October 3, 2018 order. See ECF No.

■g
£
£2 *4-t

14

40.

Q .3

15

«
2 fi
o <g
•4-»

ca

O

C/5

J-

£

in

JS

In Plaintiffs’ brief, Plaintiffs also argue that Defendant’s attorneys should be held in

16

contempt because Defendant’s attorneys “intentionally, and maliciously filed this action

17

knowingly they did not have a right to file a removal with this court [sic].” Id. at 5. However, as

18

discussed above, diversity jurisdiction exists and removal to federal court was proper. The Court

19

therefore rejects Plaintiffs’ request to hold Defendant’s attorneys in contempt.

T3 6

£ £
5 o
£
Jfl ts

20

For the reasons stated above and in the Court’s October 3, 2018 order, ECF No. 40, the

21

Court DISMISSES Plaintiffs’ complaint with prejudice and DENIES Plaintiffs’ request to hold

22

Defendant’s attorneys in contempt.

23

IT IS SO ORDERED.

24

Dated: June 12, 2019

25
26
27
28

LUCY H. 0OH
United States District Judge
8a
Case No. 18-CV-02869-LHK
ORDER DISMISSING PLAINTIFFS’ COMPLAINT WITH PREJUDICE; DENYING PLAINTIFFS’ REQUEST
TO HOLD DEFENDANT’S ATTORNEYS IN CONTEMPT

Case: 18-17058, 03/19/2019, ID: 11233851, DktEntry: 15-1, Page 1 of 3

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAR 19 2019

FOR THE NINTH CIRCUIT
PETRA MARTINEZ; STANLEY
ATKINSON,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-17058

D.C. No. 5:18-cv-02869-LHK
Plaintiffs-Appellants,

v.

MEMORANDUM*

AMERICA’S WHOLESALE LENDER,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Lucy H. Koh, District Judge, Presiding
Submitted March 12, 2019**
Before:

LEAVY, BEA, and N.R. SMITH, Circuit Judges.

Petra Martinez and Stanley Atkinson appeal pro se from the district court’s
judgment dismissing their action alleging state law claims arising out of
foreclosure proceedings. We have jurisdiction under 28 U.S.C. § 1291. We
consider sua sponte whether the district court had subject matter jurisdiction.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
9a

Case: 18-17058, 03/19/2019, ID: 11233851, DktEntry: 15-1, Page 2 of 3

Elhouty v. Lincoln Benefit Life Co., 886 F.3d 752, 755 (9th Cir. 2018). We vacate
and remand.
Plaintiffs filed this action in state court alleging only state law claims against
America’s Wholesale Lender (“AWL”). AWL removed the case to federal court
on the basis of diversity of citizenship under 28 U.S.C. § 1332(a)(1).
AWL represented in its removal papers that it “was a corporation
incorporated” in New York and had its principal place of business in New York.
Plaintiffs attached to their complaint records from the State of New York
suggesting that “American Wholesale Lender, Inc.” had dissolved in 2016.
On appeal, AWL states that AWL is a “fictitious business name used by
Countrywide Home Loans, Inc.,” but the record is devoid of any information
concerning Countrywide’s state of incorporation and principal place of business.
We are unable on this record to make a determination as to whether diversity
jurisdiction existed. See Gaus v. Miles, Inc., 980 F.2d 564, 566-67 (9th Cir. 1992)
(recognizing presumption against removal jurisdiction; we “strictly construe the
removal statute,” and reject federal jurisdiction “if there is any doubt as to the right
of removal in the first instance”). We therefore vacate the district court’s judgment
and remand for further proceedings.
AWL’s request for judicial notice (Docket Entry No. 11) is denied as moot.

10a

18-17058

Case: 18-17058,03/19/2019, ID: 11233851, DktEntry: 15-1, Page 3 of 3

The parties shall bear their own costs on appeal.
VACATED and REMANDED.

11a

18-17058

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 45 of 46
<

• ;»

\r

?■

*
*

State of New York
} ss:
Department of State

I hereby Certify, that a diligent examination has been made of the
Corporate index for documents filed w.ith this Department- by AMERICA'S
WHOLESALE LENDER, INC.. and that upon such examination’ the following has
’ been filed with this office:
A Certificate of Incorporation of AMERICA'S WHOLESALE LENDER, INC. was
filed on 12/16/2008.
Certificate of Change, was filed on 04/30/2010,
Certificate of Change-was-filed on-06/09/2010.
A Biennial Statement was filed 12/17/2010.
It was.dissolved by proclamation-of- the. Secretary of State published on
10/26/2011 pursuant to the. .'fax Law. 1 L; \y.-4

>

V,

Such’ dissolution proceedings weiSe^anHulXed’.and the existence of the
corporation revived, reinstated. aii.^(co^,tinued by a certificate duly filed
in this Department 01/l$f$<p.2
the Tax Law.
* .... i.

&*$$$

i -■ ‘

A Certificate qf Amendment

.

>•»:
Certificate of Change was ..filed-oh 1"0l/26'/^<0^tS,i(f

1t was dissolved by proclamation of--'the.-Seqretary of State published on
06/29/2016 pursuant to the Ta* La&i; /
*•
•„1

■

I further certify that ho other documents have been filed by such
corporation.

U'77’/V/:.V.V my hand and the official sunt
of the f)ej>ari»itmt of State at. the City oj
Albany, ibis 10th day of November two
thousand and sixteen.

5

•s&rS5*
fly&yy• •“.> •

\±**x**-*r.'m<

-------

' ’■

lirctidan W. I:il.:yemhl
l.yet iilifi- i)e.}mty Si'.creetey »j Slate
201611110606 161

12a

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 46 of 46
iff-

V.
«■'

\

?■:

i.

.?•

v

25339 CAMINQDE CHAMISAL
SAUNAS CA 939Q8
*

OUST REF:* MAJLrGS

*:

V.

‘v

•»
•>:

* Enclosed in the information you requested Your payment of $25.00 is hereby acknowledged.
■i

If the name, on ihe enclosed documentts) does not match exactly with the name of
the entity you requested, this- office does not: have a record of the exact name you
requested. The dacumentls) provided appeals) to be of sufficient similarity to be
the entity requested.

i

Sfi

i

*•

:::V:

l

•Vi:

%

201 till M0606 l(i!i

13a

■Jr .

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 28 of 46
't

:v.
#;■ V
*■

K

• •. .

a

/:

me

♦*

CftMARlA
1/20/2006
8:00:00

Stephen L. Vagnroi
Monterey County Recorder
Recorded at the request of

Recording Requested-By:
K. POGHY

*

, iPiliaiiitt Titlo
document;
■S:

.«

AfterRiConlingRisturn To;
COUNTRYWIDE .RCRiB LOANS., INC.

*

.... v-

2006006030

Titles;

1/ Pages- 27
86.00

Fees....
Taxes...
Other...
AHT PAID

V:

$.86.00
*

MS SV-79 DOCUMENT PROCESSING
P.O.Box 10423
van Nuya, CA 91410-0.423.
Prepared By:
tISSETTE SEQUEIRA
(Spue Above IMi line Per Recording Data]
05716299
(Ear.row/CJ.oaing t]

00012087646601006
(Doc ID -it

DEED OF TRUST
MIN 1000157-0001467488-3

f
DEFINITIONS

1.

».

•?/* v

Words used in multiple sections of this document arc defined below and other words are defined in Sections 3.
i 1,13,18,20 and 21. Certain rales rcgnrding the usage of words used in this document ore also provided in
Section 16.
3

(A) "Security Instrument" mcims this document, which is dated JANUARY 04, 2006
with all Riders to this document.
(B) "Borrower" is
PETRA MARTINEZ, AND STANLEY ATKINSON

.together

V.

!

■4

CAUPORNlA-SlnQlo Fairtly-Fannto Mse/Frnddfe Moo UNIFORM INSTRUMBIT WITH MEHS
___
Vnga 1 ol to
4«8$-eA(CA) (0207) CHL (08/0 S)(d) VMP Mtmgigo Solutlaiu. trie. (SOO)SS1-7i>8l
CONV/VA
V-

;s

form 3005 1/01

(

* a s 8 s 1 *

12 0 6 7 6 4 6 6 0 0 6 0 0 1 0 0 6 A *

14a
;
*

V

*>

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 29 of 46
,>
a:

1.

v.
■r:

v

DOC ZD
00012087646601006
Borrowed address is
25338 CAMINO Dfe CHAMiSAL, SALINAS, CA 93908
Bortower is thc (raster wider this Security Instrument.
(Q"Uudcif.,,is
AMERICA’S WHOLESALE LENDER
Lender is aCORPORAtlON
organized and existing under the laws. of. NEW YORK.
Lender’s address is
4500 Perk Granada MSN8 SVB-31.4, Calabasaa, CA 91302-1613
(D) "Trustee" is
CTC- REAL ESTATE SERVICES'
400 COUNTRYWIDE WAY, MSN SV-88, SIMI VALLEY, CA 93065 , ,
(E) "MERS" is Mortgage Electronic Registration Systems, Inc. MBRS is a separate corporation that is acting
solely as anomiaeb for Lender and Lender's successors and assigns. MERS is the beneficiary under dbls
Secnrify Instrument.. MBRS is organizCd tmd existing under the laws of Delaware, and has an address and
telephone number of P.O. Box 2026, Flint. Ml 48501-2026, tel. (888) 679-MBR&
.The
(IQ "Mote" means tlie promissory note signed by Borrower and dated JANUARY 04, 2006
Note states that Borrower owes Lender
ONE MILLION FIVE HUNDRED THOUSAND and 00/100
Dollara (U.S. S l, SOO, 000.00
) plus interest. Borrower has promised to pay this defat in regular
Periodic Payments and to pay the debt in Adi not later than February Ol, 2036 .
(Ci) ‘‘Property’* moans the. property that is described below under the heading "Transfer of Rights in the
Property.”
(H) "Loan" means the debt evidenced by the Note, plus interest, any prepayment charges and late charges
doe under the Note, and all sums due under this Security Instrument, pliis interest.
(Q "Riders" means all Riders to this Security Instrument dot arc executed by Borrower. The following
Riders are to be executed by Borrower rcheck box as applicable]:
SI Adjustable Rate Rider
CH Balloon Rider
OVA Rider

Condominium Rider .
Planned Unit Development Rider
Biweekly Payment Rider

j Second Horae Rider
J 1-4 Family Rider
J Olherfs) [specify]

(J) "Applicable Law” means, all controlling applicable federal, state and local statutes, regulations,
ordinances and administrative rules and orders (that have the effect of law) as well as all applicable final,
non-appealablo judicial opinions.
(K) ’’Community Association Dues, Fees, and Assessments" means all dues, fees, assessments amt other
charges that are imposed on Borrower or the Property by a condominium association, homeowners association
or similar organlzotinn.
(L) “Electronic Funds Transfer” means any transfer of funds, other than a transaction originated by check,
draft, or similar paper instrument, which is initiated through on electronic terminal, telephonic instrument,
computer, or magnetic tape so as to order, instruct, or authorize a financial institution to debit nr credit an
account. Such term includes, but is not limited to, point-of-sale transfers, automated toller machine
transactions, transfers initialed by tclephono, wire transfers, and automated clearinghouse transfers.
(MT) "Escrow Items" means those items that are described in Section 3.
(N) "Miscellaneous Proceeds" means any compensation, settlement, award of damages, or proceeds paid by
any third party (other thori insurance proceeds paid under the coverages described in Section 5).for (I) damage
to, or destruction of, the Property; (ii) condemnation or other miring of nil or any part of the Property; (iii)
«B|.tiA{CA)<<wor)

CHL (O&tiB)

P«®d2oI IS

i-

15a

Perm 3003 1/01

4

‘i

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 30 of 46
K

.

.

. ‘

;

V.

:
!

.

DOC ID I: 00012087646601006

conveyance in lieu of condemnation; Or (iv> misrepresentations of, or omissions as to, the value and/or
condition of the Property.
(O) '’Mortgage Insurance” means insurance protecting Lender against the nonpayment of, or default on, the
;
Loan.
{F} "Periodic Payment" means the regularly scheduled amount due for (i) principal and interest under the
Note, pitta (ii) any amorists under Scctioh'3 of this Security instrument.
.
KD "RESPA" means the Real Estate Sctdeirienl Procedures Act (12 U.S:C. Section 2601 ct scq.) and its
imptcmenifDg.regutatipn, Regulation % (24 CPJt Part 3500), as they might fee amended from rime to rime, or
any additions or successor legislation or regulation that governs the same subject matter. As used in this
Security Instrument; "RESPAi1 refers to. nil requirements and restrictions that are imposed in regard to a
"federally related mortgage loan1* even if the Loan does not .quality as a, "federally related mortgage loan*
under RESPA.
'
‘
‘
(R) "Successor in Interest of Borrower" means any party that has taken title to the Property, whether or not
that party has assumed, Borrowei'sobiigations under the Note and/or this Security Instrument.
TRANSFER OP RIGHTS IN THE PROPERTY ■
The beneficiary of this Security Instrument is MERS (solely as nominee for Lender and Lender's
successors and assigns) and the successors mid assigns of MERS, This Security 'Instrument
secures to Lender, (i) the repayment of the Loon, and all renewals, extensions and modifications
of the Note; and (ii) the performance of Borrower's covenants and agreements under this
Security Instrument and the Note. For IhU purpose; Borrower irrevocably grants and conveys to
Trustee, in trust’, ‘with power of sale, the following described property located in the
MONTEREY
COUNTY
of
(Ntintcf RBcarding JuriuUdion)
ftype oTRawdinjo Jurisdiction!
SEE EXHIBIT. "A*: ATTACHED HERETO AND MADE A PART HEREOF.
'*
'■*

*•

ri

»

Parcel ID Number 416321016.

which currently has the address of

25339 CAM1NO DE CHAMISAL, SALINAS’
(Stnet/Ciiyl

California

93908

("Property Adthrire”):

i

(Zip Code)

TOGETHER WITH all the improvements now or hereafter erected on the property, and all casements,
appurtenances, and futures now or hereafter a part of the property* All replacements and additions shall also
be covered by this Security Instrument. All of the foregoing is referred to in this Security Instrument as (he
"Property* Borrower umtemtemis and agrees Shot MERS holds only legal title to (ho interests granted by
Borrower in this' Security Instrument, but, If necessary to comply with law or custom, MERS (as nominoe for
Lender mid Lender's successors end assigns) hus tho right: tn exercise any or oil of (hose interests, laclotling.
43^*0*<CA) (0207)

CHL(oams)

PogoJom

16a

Farm S001 1/BI

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 31 of 46

. •.*

DOC ID' #=: 0001208T646601006
but not limited to. the right to foreclose and 'sell the Property; and to take any action required of Lender
Including, fautfidt limited to, rcleasingand canceling this Sccurity Instrument.
BORROWER COVENANTS (bid Borrower is.lawftilly SeiSed of the estate hereby conveyed and has the
right to grant and convey the Property and that the Property » unencumbered, except for encumbrances of
record. Borrower wflrrtiils arid wiU defend generally the title to the property against all claims and demands,
euhjccr to any encumbrances of record,
THIS SECURITY WSmOWENT combines uniform covenants for national use and non-uniform
covenants with limited' variations by jurisdiction to constitute a unifrinb security instrument covering real
property.

•

UNIFORM COVENANTS. Borrowerand Lender covenant and agree as follows;
1. Payment of Principal, Interest, Escrow Items, Prepayment Charges, and Late Charges. Borrower
shall pay' when'due the principal of, and interest on, the debi evidenced by the Koto and any prepayment
charges and late charges, due under the Note. Borrower shall also pay funds for Escrow Items pursuant to
Section 3. Payments due under the Note.arid this Security Instrument shall ho mode, in U.S. currency.
However, if any check or other instrument received by Lender as payment under the Noth or this Security
Instrument is returned to Lender unpaid. Lender may require that any or all subsequent payments due under
the Note and this Security Instrument be made in one or more of the. following forms, aa selected by Lender:
(a) cash; (t) money order; (c) certified check, bank check, treasurer's check or cashier's check, provided any
such check Is drawn upon an Institution whose deposits aro insured by a federal agency, instrumentality, or
entity; or (d) Electronic Funds Transfer.
Payments arc deemed received by lender when received at the location designated in the Nutc or at such
other'location as may be designated by lender in accordimce'with the notice provisions in Section IS. Lender
may return, any payment' nr partial payment If the payment or partial payments are insufficient to bring the
Loan current Lender may accept any payment or partis! payment insufficient to faring the Loan current,
without waiver, of any rights hereunder dr prejudice to its rights totefose such payment or partial payments in
the future, but Lender is not obligated to apply such payments at the lime such payments are accepted. If each
Periodic Payment is applied as of its scheduled due date, then Lender need not pay interest on unapplied
funds. Lender may hold such unapplied funds until Borrower makrapayriicntto bring the Loan current. If
Borrower does not do so within a reasonable period ot time,' Lender shall cither apply such Bmps Or return
them to Borrower. If not applied earlier, such hinds will be opplted to the outstanding principal balance under
the Note immediately prior lo foreclosure. No offset or claim which Borrower might have now or in the future
against Lender shall relieve Borrowor from making payments due under the Note and this Security Instrument
Or performing (he covenants apd agreements secured by this Security Instrument.
2. Application of Payments nr Proceeds. Except as otherwise described in this Section 2, all payments
accepted and applied by Lender shall be applied in tho following order of priority: (a) interest duo under the
Note; (b) principal due under the Note;, (c) amounts duo under Section 3. Such payments shall be applied to
each Periodic Payment in the order in which it became due. Any remaining amounts shall be applied first to
late charges, second to'any other amounts due under this Security Instrument, and then to reduce the principal
balance of the Note.
if Lender receives a payment from Borrower for a delinquent Periodic Payment which(includes n
sufficient amount to pay any late charge duo, the payment may’ be applied to the delinquent payment end the
late charge. If more than one Periodic Payment is outstanding, Lender may apply any payment received hum
Borrower to the repayment of the Periodic Payments if, and to the extent that, each payment can be paid in
fill). To the extent that any cxccm exists after the payment is applied to die foil payment of one or more ,
Periodic Payments, such excess'may be applied to any late charges due. Voluntary prepayments shall be
applied first to any prepayment charges arid then as described in die Note.
' Any application of payments, insurance proceeds, or Miscellaneous Proceeds to principal due under the
Note shall not extend or postpone tho due date, or change the amount, of (he Periodic Payments.
{S^-SAiCAXoren

CHL (OflJOfl)

PBflfi 4 ©J10

17a

Form $005 1/Di

‘4

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 32 of 46

■i

\

r :.r'

DOC ID #: 00012087646601006
3. Funds for Escrow Items. Borrower shall pay .to Lender on die day Periodic Payments am due under
the Note, until the Note is paid in fail, a sum (the "Funds") to provide for payment of amounts due for. (a)
taxes and assessments and othcritcmswhich can attain priority over this Security Instrument as a lien or
encumhrtnoe pn the Property; (b) leasehold payments or ground rents, on the Property, if any; (c) premiums
for any and all insurance'required by tinder under Section 5; and (d) Mortgage Irimahce.premiums, if any, or
any sums payable by Borrower tQ Lender in lieu of- the payment of Mortgage Insurance premiums in
accordance with the provisions of Section 10. These items are calledT’Escrow Items." At origination or at any
time during; the terin of the Loan, Lender may require that Community Association Dues, Fees, and
Assessments, if any, he escrowed by Borrower, and such dues, fees and assessments shall he an Escrow Item.
Borrower shall promptly furnish to Lender all notices of amounts, tobe paid under this Section. Borrower shall
pay Lender the Funds for Escrow Items unless Lender waives Borrower's obligation to pay the Funds for any
or all. Escrow Items. Lender may waive Borrower's obligation to. pay to Lender Funds.for any or all Escrow
Hems at any time. Any such waiver may only he ip writing. In the event of such waiver, Borrower shall pay
directly. When aiul where payable, the amounts due for any Escrow Items for which payment of Funds has
been waived by Lender and, if Lender-requires, shall furnish to Lender receipts evidencing such payment
Within such time period as Lender may require. Borrower's obligation to main such payments and to provide
receipts, shall for all purposes be deemed to be a covenant and agreement contained in 'this Security
Instrument, as the phrase "covenant and agreement" is used in Section 9. if Borrower is obligated to pay
Escrow Items directly, purUiant.to a waiver, and Borrower fails-to pay the amount dub for an Escrow Item,
Lender may exercise its rights under. Section 9 and pay such amount and. Borrower shall then be obligated
under Section 9 to repay to Lender any such amount Lender may revoke the. waiver as to any or all Escrow
Items at any time by a notice given in accordance with Section 15 and, upon such revocation. Borrower shall
pay to Lender all FUnds. and in such amounts, that arc then required under this Section .3.
Lender may. at any time, collect and hold Punds In an amount (a) sufficient to permit Lender to apply the
Funds tg the lime specified under RBSPA, and (b) not to exceed the maximum amount n lender can require
under RESPA. Leader shall estimate the amount of Funds due on the basis of current data and reasonable
estimates of expenditures of future Escrow items or otherwise in accordance with Applicable Low.
The Funds shall be hold in on institution whoso deposits are insured by a federal agency, Instrumentality,
or entity (including Lender, if Lender Is an institution whose deposits are so insured) or in any Federal Home
Loan Bank. Lender shall apply the Funds jo pay (he Escrow Items no later than the time specific under
RBSPA. Lender shall not change Borrower for holdipg end applying foe Rinds, annually analyzing the escrow
account,' or verifying the Escrow Items, unless Lender pays Borrower interest on the Funds and Applicable
Law permits Lender to make such a. charge. Unless tm agreement is made in writing or Applicable Law
requiris intacst to bo paid oh thc Funds, Lender shall not be required to pay Borrower any interest dr earnings
on the Rinds.. Borrower ami Lender can agree in writing, however, that interest shall be paid on the Rinds.
Lender shall give' to Borrower, without charge, an annual accounting of the Funds as required by RBSPA,
If there Is a surplus of Funds held in escrow, ns defined under KESPA, Lender shall account to Borrower
for the excess tends In accordance with RESPA. If there Is a shortage of Funds held in escrow, as defined
under RESPA, Lender shall notify Borrower iu required by RESPA, and Borrower shall pay to Lender the
amount necessary to make up the shortage in acconloncc with RBSPA, but in no more than 12 monthly
payment}. If there is a deficiency of Punds held in escrow, as defined under RBSPA, Lender shall notify
Borrower tut required by RBSPA, and Borrower shall pay to Lender the amount necessary to mate up the
deficiency in accordance with RBSPA, hut in no more than 12 monthly payments.
Upon payment in full of all sums secured by this Security Instrument, Lender shall promptly refund to
Borrower any Funds held hy Lender.
»

,-«A(CA)(02OT)

■

>

chl (owes)

Pojjotiof 10

18a

Form 3Q0S 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 33 of 46

*.

♦

*

:f

«;

1
DOC.ID
00012067646601006
4. Charges; Liens. Borrower shall pay all taxes, assessments, charges, fines, and impositions attributable
to thc Property which canattaiit priority over this Security Instrument, leasehold payments or.©round rents on
theProperty, ifuny. and Gofttmuhify Association Ducs,Fces, and Assessments,- if any. To die extent that these
itdnra am Escrow Jtctns. Borrowcrshall pay them m the mariner provided inS«iion3.
Borrower shall promptly discharge any lien which has priority over this Security Instrument unless
Borrower: (a).agrees in writing.to the payment of the obligation,secured by die lien io.a manner acceptable to
Lender, bgfcnly so long as Borrower is performing such agreement; (b) contests the lien-in good frith fey, or
defends against enforcemem of tbe.lien in, legal proceedings which in Lender's opinion operate to prevent the
enforcement of the lien while ihoseproceedings are pending; but only until such proceedings are concluded;
or {c) secures from the holder of the lieo ah agreement satisfactory to Lender subordinating the lien to this
Security Instrument If Lender determines that any part of tho Property is subject to a lien which can attain
priority over this Security Instrument Lender may give Borrower a notice identifying the. lien. Within 10 days
of the dale tin which that notice is given, Borrower Bhall satisfy the liar or take one or more of the actions set
forth obtivc in this Section 4.
Londer rnay require Borrower to pay a one-time charge for a real estate tax verification and/or reporting
service used by Lender in connection with, this Loan.
5, Property Insurant*. Borrower shall keep, the improvements now existing or hereafter erected on the
Property insured against loss by fire, hazards included within the term "extended coverage." and any other
hazsrds including, but not limited to. earthquakes and Hoods, for wbicb Lender requires insurance. This
insurance shrill be' maintained in the amounts (including deductible levels) end for the periods that Lender
requires. What Lender requires pursuant to thc preceding sentences can change during the term of the Loon.
The insurance carrier providing ifae insurance shall be chosen by Borrower subject to Lender's right to
disapprove Borrower's choice, which right shall not be exercised unreasonably. Lender mny require Borrower
to pay, in connection with this Loart, cither', (a) a one-time charge for flood zone determination, certification
nod tracking services; or (b) a one-time charge for flood zone determination and certification services and
subsequent charges cadi time remappings or similar changes occur which reasonably might affect such
determination decertification. Borrower shall also be responsible for the payment of any fees imposed by the
Federal Emergency Management Agency in connection with the review of any flood zone determination
resulting from an objection by Borrower.
If Borrower foils to maintain any of. the coverages described above, Lender 'may obtain insurance
coverage, a{ Leader’s option and Borrower’s expense. Lender is under no obligation to purchase any particular
type ar amount of coverage. Therefore, such coverage shall cover Lender, but might or might .not protect
Borrower, Borrower’s equity in the Property, or the contents of the Property, against any risk, hazard or
liability and might provide greater Or lesser Coverage than was previously in effect. Borrower acknowledges
that the cost of the insurance coverage so obtained might significantly exceed the cost of insurance that
Borrower could have obtained. Any amounts disbursed by Lender under this Section 5 shall become additional
dobt of Borrower secured fey (his Security Instrument. These amounts shall bear interest at the Note rate from
foe dale of disbursement mol shall be payable, with such interest, upon notice from Lender to Borrower
requesting payment..
All insurance policies required by Lender and renewals of such policies stud) bo subject to Lender's right
to disapprove 'such policies, shall include a standard mortgago clause, and shall name Lender as mortgagee
and/or as an additional loss payee and Borrower further agrees to generally assign rights to!lnsursncc proceeds
to foe holder of foe Note up to the amount of the outstanding loan balance. Lcndcr-ahai) hove foe right to hold
foe polidos and renewal certificates. If Lender requires, Borrower shall promptly glvcto Lender oji receipts of
t ♦

«;*

■OA(CA) (0307) .

CHL(0a/OS)

Pass a of 10

19a

Form 1009 1101

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 34 of 46

K

i:
!

DOC. ID 1: 000120076'!6601006
4. Changes; Liens. Borrower shall pay all taxes, assessments,charges.fines, and impositions attributable
to U^ Bro^triy which can «taln priority oyer this. Security Instritmcm, Ieaseholtl paynients or. ground rents on
die Pttjjteity, if any, and COtiuraihtty Association Dues, Fees, andAssessmentu, if any. To the extent dial these
items are Escrow Jftetm. Bomjwer shdl pay them in the raaimer provided in Section 3.
Borrower shall promptly discharge any lien which has priority over this Security Instrument unless
Borrower: (a) agrees in writing,to the payment of the obligation.securcd by fee lien in.a otumncr acceptable to
Lender, but' only so iong as Bofrbwer is performing such agreement; <ib) contests the lien-in good frith by. or
defends against enforcement of the lien in. legal proceedings which in Lender's opinion operate to prevent rite
enforcement of the lien while thOse’proccbdings are pending! but only until such proceedings are. concluded;
or<c) secures from the holder of ihfcljen ah agreement satisfactory to Lender subordinating the lien to this
Security Instrument, If Lender detemtipcs feat any pan of iho Property is subject to a lien which can attain
priority over this Security Instrument, Lender may give Borrower a notice identifying ihe. lien. Within 10 days
of the data On which feat notice is given, Borrower Rhall satisfy fee lien or take, one or more of fee actions set
forth above in this Section 4.
Lender may require Borrower to pay a one-time charge far a real estate tax verification and/or reporting
service used by Lender in connection wife, this Loan.
5. Property Insurance. Borrower shall keep, the improvements now existing or hereafter erected on fee
Property insured against loas by fire, hazards included within fee term "extended coverage," and any other
hazards including, but nor limited .to, earthquakes and floods, for which Lender requires insurance, fids
insurance shall be maintained in fee amounts (including deductible levels) and for fee periods feat Lender
requires. What Lender requires pursuant to'fee preceding sentences can change during fee term of fee Loan.
The insurance carrier providing the insurance shall be chosen by Borrower subject to Lenders right to
disapprove Borrower's choice, which right shall not be exercised unreasonably. Lender may require Borrower
to pay, in connection with this Loan, either: (a) a one-time charge for flood zone determination, certification
and tracking services; or (b) a ono-time charge for flood zone determination and certification services and
subsequent charges each rime remappmgs or similar changes occur which reasonably might affect such
determination or certification.' Borrower shall also be responsible for fee payment of any fees imposed by fee
Federal Emergency Management Agency in connection wife fee review of any flood zone determination
resulting from an objection by Borrower.
If Borrower fails to maintain any of the coverages described above. Lender may obtain insurance
coverage, at Lender's option and Borrower's expepso. Lender is under no obligation to purchase any particular
type or.hawuitt of coverage. Therefore, such coverage shall cover Lender, but might or might,not protect
Borrower. Borrower's equity in fee Property, or the contents of fee Property, against any risk, hazard or
Itsbifily and might provide greater Or leaser coverage than was previously In effect Borrower acknowledges
feat the cost of fee insurance coverage so obtained might sigrufiqamty exceed fee coat of insurance feat
Borrower could have obtained. Any amounts disbursed hy Lender under this Section S shall become addiduiral
dobt of Borrower secured by this Security Instrument Titreo amount/) shall bear interest st fee Note rate from
fee date-of disbursement and shall be payable, wife such interest, upon notice from Lender to Borrower
requesting payment..
Ail insurance policies required by Lender and renewals of such policies shall bo subject (o Lender's right
to disapprove such policies, shall include a standard mongago clause, and shall name Lender as mortgagee
and/or as an additional loss payee and Borrower further agrees to generally assign rights tolinsurancc proceeds
to the holder of the Note up to the amount of the outstanding loan balance. Lcndcr sholi have fee right to hold
tpe policies and renewal certificates. If Lender requires. Borrower shall promptly give to Lender all receipts of

,<«A(CA}(0»7) .

CHI (03/08)

Pagafl ol10

20a

Perm 100S 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 35 of 46
> i

v
.i*

DOC ID #i 00012.087646601006

paid premiums, and renewal notices. If- Borrower obtains any idiot 6f insurance cover^e. not otherwise
required by tender, for damage to, or destruction of., the'Property, such policy slkil include a standard
mortgage clause and shall, name tender as mortgagee and/iffdi bn additional lasspayee and Borrower.farther
agrees to generally assign rights to insurance prooceds to. the holdfer of the Note up to the amount of the
Outstanding loan balance.
In the event of loss. Borrower.shall give prompt notice to the insuraiicccarrier and Lender.. Lender may
make proof: of loss if not made-promptly by Borrower. Unless Lender and Bonrower otherwise agree in
writing, any insurance proceeds, whether or not. tbe underlying insurance was required by Lender, shall be
applied to restoration or repair of the property,■ if the restoration' or repair is economically feasible and
Lender's security is not lessened. Curing such repair and restoration period, Lender shall have the right to hold
such insurance proceeds until Lender has had an opportunity to inspect such Property to ensure die work has
been completed to Lender's aiitisfaettt&i, provided that such-inspcction shall be imdettaJaa promptly. Lender
may disburse proceeds for the repairs and restoration in a single payment or in a series of progress payments
as the work is completed. Unless an agreement is made in writing or Applicable Law requires interest to be
paid on such insurance proceeds,. Lender shall not' be required to pay Borrower any interest or earnings on
such proceeds. Fees for public-adjusters, or other third parties, retained by Borrower shall not be paid out of
the insurance proceeds arid shall be (ho sale obligation of Borrower. If the restoration or repair to not
economically feasible or Lender’s security would be lessened, the insurance proceeds shall be applied to. the
sums secured by this Security Instrument, whether or not then dire, with toe excess, if any, paid to Borrower.
Such insurance proceeds shall be applied in the order provided for in Section 2.
If Borrower abandons the Property, Lender may file, negotiate and settle any available insurance claim
and related matters, if Borrower does not respond within 30 days to a notice from Lender diet the insurance
carrier has offered to settle a claim, then Leader may negotiate and settle the claim. The 30-day period will
begin' when the notice is given. In cither event, or if Lender acquires the Property tinder Section 22 or
otherwise, Borrower hereby qsslgns ,<o Lender (a) Borrower's rights to any insurance proceeds in an amount
not to exceed the amounts unpaid'under theNotc or this Security Instrument, and (b) any other OfBorrower's
rights (other than the right to any refund of unearned premiums prud by Borrower) under all insurance policies
covering ihc Property, insofar as such rights are applicable to the coverage of the Property. Lender may use
the insurance proceeds either to repair or restore the Property or to pay amounts unpaid under the Note or this
Security Instrument, whether or not then due.
6‘. fkcapancy. Borrower shall occupy, establish, and use the Property as Borrower's principal residence
within 60 days after ihe'executian of this Security Instrument and shall continue to occupy die Property as
Borrower's principal residence for at least'one year after the date of occupancy, unless Lender otherwise
agrees in writing, which consent shall not be unreasonably withheld, or unless extennating circumstances exist
which ore beyond Borrower's control.
7, Preservation, Maintenance and Protection of the Property; Inspections. Borrower shall not
destroy, damage or impair the Property, allow the Property to deteriorate or commit waste on ihc Property.
Whether or not Borrower is residing In the Property, Borrower shall maintain the Property in order to prevent
die Property from deteriorating or decreasing in value due to its condition, Unless it is determined pursuant to
Section 5 that repstir or restoration is not economically feasible, Buirowcr shall promptly repair the Property if
damaged to avoid further deterioration or damage. If insurance or condemnation proceeds are paid in
connection with damage to, or the taking of, the Property, Borrower shall be responsible for repairing or
restoring the Property only if Lender has released proceeds for such purposes. Lender may disburse proceeds
for the repairs and restoration in a single payment or in a series of progress payments as tfie work is
completed. If the insurance or condemnation proceeds are not sufficient to repair or restore the Property,
Borrower is not relieved of Borrower's obligation for tho completion of such repair or restoration.

B8|-eA(CA) tasert

CHLfaaAS) .

Peon 7 ol 10

• •-

21a

Fermiaoa I/O I

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 36 of 46
*•

if

■%,

* •

DOC ID
000120876^6601006
Lender .or its agent may make reasonable entries upon and inspections of the Property. If it has
reasonable causCv Lender may inspect the interior of the impfovewents on the Property. Lender shall give
Borrower noticeat the time of or prior ti> such an interior inspection specifying such reasonable cause.
B. Borrb5irer's Loan ApplfcBtian,Bbnower shall be in.defeult it during the Loan application process,
Borrower or any petsons or entities acting at the direction of Borrower or with Borrower's knowledge or
consent gave materially false, misleading, or inaccurate-information or statements to Lender (or failed to
provide Lender With material information) in connection with the Loan. Material representations include, hut
are not limited to, representations.concerning Borrower's occupancy .of die Property an Borrower's principal
. residence.
9. Protection of Lender's Interest In the Property and Rights Under this Security Instrument. If (a)
Borrower foils to perform the covenants and agreements contained in this Security Instrument, (b) there is a
legal -proceeding that might significantly affect. Lender's interest in the Property and/or rights, under this
Security instrument (such as a proceeding In bankruptcy; probate, for condemnation or forfeiture, for
enforcement of a lien which may attain priority oyer this Security Instrument or to.enforce laws or
regulations), or (c) Borrower has abandoned the Property, then. Lender may do and pay for whatever is
reasonable or appropriate to protect Lender's interest in the Property and rights under this Security instrument,
Including protecting and/or assessing the value of the Property, and securing and/or repairing tho Property.
Lender's actions can include, but are npt limited to: (a) paying any sums secured by a lien which has priority
over this Security Instrument;, (b) appearing in court; and (c) paying reasonable attorneys* fees tn protect its
interest in die Property and/or rights under this Security Instrument, including Its secured position in a
bankruptcy proceeding. Securing die Property includes, but is npt limited to, entering the Property to make
repairs, change locks, replace or board up doors and windows, drain water from pipes, eliminate building or
other code violations or dangerous conditions, and have utilities turned on or off. Although Lender may take
action under this Section 9. Lender docs hot have to do so and is not under any duty or obligation to do so. It
is agreed that Lender incurs do liability for riot hiking any or all actions authorized trader this Section'9.
Any amounts dishunted by Lender under this Section 9 dial) become additional debt of Borrower Bccurcd
by this Security Instrument. These' amounts shall bear interest at the Note rate from the date of disbursement
and shall be payable, with such interest, upon notipe froro Ltindcr to Borrower requesting payment.
If this Security Insinuiumt is on a leasehold, Borrower stall comply with til the provisions of the lease.
If Borrower acquires fee tide to dtp Property, the leasehold and the fee title shall not merge unless Lender;
agrees to the merger in writing.
10. Mitrtcage Insurance. If Lender required Mortgage Insurance as a condition of making the Loan,
Borrower dial! pay die premiums required to maintain the Mongago Insurance in effect. If, for any reason, the
Mortgage Insurance coverage required by' Lender ceases to be available from the mortgage insurer that
previously provided such insurance and Borrower was required to make separately designated payments
loward the premiums for Mortgage Insurance, Borrower shall pay the premiums required to obtain coverage
substantially equivalent to the Mortgage Insurance previously in effect, at a cost substantially equivalent to the
cost to Borrower of the Mortgage Insurance previously in effect, from an alternate mortgage insurer selected
by Lender. If substantially equivalent Mortgage Insurance coverage is not available, Borrower shall continue
to pay to Lender the amount of (ho separately designated payments that wore duo when the insurance coverage
ceased to be in effect. Lender will accept, use and retain these payments as a non-refundable loss reserve in
lieu of Mortgage Insurance. Such loss reserve shall be non-reftindahte, notwithstanding (ho fact that the Loan
is ultimately {raid In full, and Lender shall not be required to pny Borrower nny interest or earnings on such
toss reserve. Lender can no longer require loss reserve payments If Mortgage Insurance coverage (in the
amount and for the period that Lender requires) provided by on insurer selected by Lender again becomes
available, is obtained. andLender requires separately designated payments toward the prenduras for Mortgage
Insurance. If Lender required Mortgage Insurance us a condition of making the Loan end Bonowcr was
required to make separately designated payments toward (he premiums for Mortgage Insurance, Borrower
<8Q|-dA(CA}<0M7)

CHMoares) '

'foeaSoMO

22a

Form 300S 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 37 of 46
>.*

•'

DOC ID f: 000120076^6601006
Lcnder.br its agent may make reasonable entries -upon and inspections of the Property. If it has
itasontibje cause,; Lender may inBp&i; the interior of the improvements on theRtoperty. Leader shall give
Borrower notice attheti me of or prior to such an interior inspection specifying such reasonable cause.
8. BorrcWer's LoBn Application, Borrower shall be in, default J& dining the Loan application process,
Borrower or aiiy persons or endues acting at the direction of Borrower or with Borrower's knowledge or
consent gave materially false, misleading, or inaccurate information or statements to Lender (or failed to
provide Lender with material information) m .connection with the Loan. Material representations include, but
ate not limited to, representations .concerning Borrower's occupancy of die Property as Borrower's principal
, residence.
9. Protection of Lender's Interest lo the Property and Rights tinder this Security Instrument. If (a)
Borrower fails to perform the covenants and agreements contained in this Security Instrument, (b) there is a
legal proceeding that might significantly affect Lender's interest in the Property and/or rights under this
Security instrument (such as a proceeding In bankruptcy, probate, for condemnation or forfeiture, for
enforcement of a lien which may attain priority oyer (his Security Instrument or to.enforce laws or
regulations), or (c) Borrower has abandoned the Property, then. Lender may do ami pay for whatever is
reasonable or appropriate to protect Lender's interest in the Property and rights under this Security Instrument,
Including protecting end/or assessing the value of the Property, and securing and/or repairing the Property.
Lender's fictions con include, but are not limited to: (a) paying any sums secured by a lien which has priority
over this Sorority Instrument; (b) appearing in court; and (c) payirig reasonable attorneys’ fees to protect its
interest in die Property and/or rights under thia Security Instrument, including its secured position in a
bankruptcy proceeding. Securing the Property includes, but is not limited to, entering the Property to mako
repairs, change locks, replace dr board up doors and windows, drain water from pipes, eliminate building or
other code violations or dangerous conditions, and have utilities tunned on or off. Although Lender may take
action under this Section 9, Lender does hot have to do so and is not under any duty or obligation to do so. It
is agreed that Lender incurs no liability for not taking any or all actions authorized under this Section'9.
Any amounts disbursed by Lender under this Section 9 shall become additional debt of Borrower secured
by this Security Instrument. These' amounts shall bear interest at the Note rate from the date of disbursement
and shall be payable, with such interest, upon noiipe from Lender to Borrower requesting payment.
If this SeCuo ty instrument is on a leasehold, Borrower shall comply with till die provisions of the lease.
If Borrower acquires fee tide to dtp Property, the leasehold and the fee title shall not merge unless Lender
agrees to the merger in writing.
10. Mortgage Insurance, If Lender required Mortgage Insurance as a condition of making the Loan,
Borrower shall pay the premiums required to maintain the Mortgage Insurance in effect. If, for any reason, the
Mortgage Insurance coverage required by' Lender ceases to be available from the mortgage insurer that
previously provided such insurance and Borrower was required to mako separately designated payments
toward the premiums for Mortgage insurance, Borrower shall pay the premiums required to obtain coverage
substantially equivalent to the Mongage insurance previously in effect, at a cost substantially equivalent to the
cost to Borrower of the Mortgage insurance previously in effect, from an alternate mortgage insurer sefocted
by Lender. If substantially equivalent Mongage Insurance coverage Is not available, Borrower shall continue
to pay to Lender tho amount of tho separately designated payments that wore duo when the insurance coverage
ceased to be in effect. Lender will accept, use and retain these payment1! as a non-refimdablc loss reserve in
lieu of Mortgage Insurance. Such loss reserve shall be non-reAindahle, notwithstanding tho fan that die Loon
is ultimately paid in full, and Lender nhafl not be required to pay Borrower any interest or earnings on such
loss reserve. Lender can no longer require loss reserve payments If Mortgage Insurance coverage (tn the
amount and for .the period that Lender requires) provided by on Insurer selected by Lender again becomes
available, is obtained, and Leader requires separately designated payments toward the premiums Air Mortgage
Insurance. If Lender required Mortgage Insurance us a condition of malting the Loan and Borrower was
required to make separately designated payments towanl the premiums for Mortgage Insurance. Borrower
4!%-d4(CA)<a2OT)

CHL(OtVOS)

'

•Vaooficf 10

23a

FormteOS 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 38 of 46

>

‘

4'

DOC ZO
00012087646601006
shall pay the precniurosrequircii tp maintain-Mortgage Insurance in effect, or to provide anon-rtfundableloss
reserve, until Leftdede requirement for Mortgage Insurance ends io accordance with any written agreement
betweenBanrowcr acd Lender providing for such lenninatioft qr until termination is rcquircd by Applicable
Law. Nothing in thte Sccltors 10 (dfoctbBdnower's obligation to pay interest ai the rate provided in the Note.
Mortgage Insurance reimbpn$s Lender (or any entity that purchases the Note) for certain losses it may
incur if Bctrrdivcr.docs notrepaythu Loan a; agreed. Borrower is not a party to the Mortgage Insurance.
Mortgage-insurers evaluate their total ride on ail such insurance in force foam time to time, and may enter
into agreements with other parties that Share or modify their risk, or reduce losses. These agreements are on
terms and conditions that are satisfactory to Ihcmoitgage insurerand the other party (or jetties) to these
agreements. These agreements may require the mortgage insurer to make payments using any source of funds
that the mortgage insurer may have available (which may include, funds obtained from Mortgage Insurance
premiums).
As a result of these agreements, tender, any'purchaser of the Note, another insurer, any reinsurer, any
Other entity, or any affiliate of any .of the foregoing, may receive (directly or indirectly) amounts that derive
from (or might be characterized as) a portion of Borrower’s payments for Mortgage Insurance, in exchange for
sharing or modifying the mortgage insurer's risk, or reducing losses. If such agreement provides that an
affiliate of Lender takes a share, of the insurer’s risk in exchange for a share of the premiums paid to the
insurer, the arrangement is often termed "captive rcinsuranct.'Fu/thcr:
(a) Any such agreements will oof affect the amounts that Borrower has agreed to pay for Mortgage
Insurance, or any other terms of (he Loan.- Such agreements will not increase the amount Borrower will
owe for Mortgage Insurance, and they will not entitle Borrower to any reload,
(b) Any snch agreements wiB not affect the rights Borrower lias - IT any - with-respect to theMortgage Insurance under the Homeowners Protection Act of 1$$8 or any other law. These rights may
include the right'to receive, certain disdwores, to request find obtain caoceBstion of the, Mortgage
Insurance, to have the Mortgage Insurance terminated automatically, ond/or to receive a refund of any
Mortgage insurance premiums that were unearned at the time of such cancellation or termination.
II. Assignment of MbeeDaneoas Proceeds; Forfeiture. All Miscellaneous Proceeds are hereby
assigned to and (dial! be paid to Lender.
If the Property is damaged, such Miscellaneous Proceeds shall be applied to restoration or repair of the
Property, if the restoration or repair M economically feasible and Lender's security is not lessened. During re ch
repair and restoration period, Lender shall have die right to hold such MiEccJIancoosProceeds until Lender has
had art opportunity to inspect such Property to ensure the work has been completed to Lenders satisfaction,
provided dug such inspection shan.be undertaken promptly. Lender may pay for tho repairs and restoration in
a single disbursement or in a scries of progress payments as the work is completed. Unless an agreement is
made in writing or Applicable Law.requires interest u be paid on such Miscellaneous Proceeds, Lender shall
not be required to pay Borrower any interest or earnings on such Miscellaneous Proceeds. If the restoration or
repair is tint economicallyfeasible or Lcndei's'sccurity would be lessened, the Miscellaneous Proceeds shall
be applied to the sums secured by this Security Instrument, whether or not then due, with the excess, if any,
paid to Borrower. Such Miscellaneous Proceeds shall be applied in the order provided fur in Section 2.
In the event of a total taking, destruction, or loss in value of the,Property, the Miscellaneous Proceeds
shall be applied to tho sums secured by this Security Instrument, whether or not then due, with die excess, if
any, paid to Borrower,
*
In (he event of,a partial taking, destruction, or toss in value of the Property in which the fair moritet value
of the Property immediately before the partial taking, destruction, or loss in value is equal to or greater than
the amount of the sums secured by this Security Instrument immediately before foe partial taking, destiucdon,
or loss lit value, unless Borrower and Lender otherwise agree in writing, the sums secured by this Security

4R|-eA(CAj(<U»7|

CHI ((WHS)

Sana Oat to

24a

Form Mas i/at

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 39 of 46
i i

>

\

DOC. ZD #: 00012087646603,006
Jjrmru«itnt ^a3H}er«iuce4by*eammjnt of the MjsceUanwusIhitJcecds multiplied by lhe following feajom ,
(a), the touf amount of-the epos secured immediately bcfpnethe partial taking, desiroction,or loss in value
divided by (b) the fair market value oftiie Properly immediately before the partial taking, destruction; or loss
in value: Aiiy balancc shall be pSid fo Borrower,
In .dte/cgam of a partial jtaldpg, flcetfuclion, or loss in value irflite Prttpfcrty.ln which die fair market value
of the Property immediately before the partial taking, destruction* or loss in value is less than' the amount of
the sums sectaed immedrately beipre the partial faking, destruction, or loss in value, unless Borrower and
Lender otherwise agree fit writing, die Miscellaneous Proceeds Shall be applied to the sums secured by this
Security InBtrumcnt whethcr or not theatres are died dueIf *e Property ii abandoned by Borrower, or If, after notice by Lender to Borrower that the Opposing
Pony (as defined ht.the.riew scfttcocej offers to.make an award, to settle a claim Jbr damages, Borrower fails to
respond 10 Lender within.30 days after the date the notice is given, Lender ^ authorized to collect and apply
thc-Miscellaneous Proceeds either to restoration or repair of the Property or to the sums secured by this
Security Instrument, whether or not then due. "Opposing Party” means the third party that owes Borrower
Miscellaneous Proceeds or the patty against whbui Borrower has a right of action in regard to Miscellaneous
Proceeds.
Borrower shall be in default if any action or proceeding, whether civil dr criminal, is begun that, in
Lender's judgmcnucouW result in forfeiture of the Property or other material impairment of Lender's interest
in the Property or rights under this Security Instrument. Borrower can cure such a default and, if acceleration
has occurred, .reinslate as provided hf Section 19. by causing the action or proceeding to be dismissed with a
rulingthet, in Lender’s judgment, precludes forfeiture of the Property or other material impairment of Lender's
interest in the Property or rights under this Security Instrument. The proceeds of any award or claim for
damages that are attributable to the impairment of Lender's interest in the Property are huneby assigned and
shall be paid to Lender.
All Miscellaneous Proceeds that are not applied to restoration of repair of the Property shall be applied in
die order provided for In Section 2.
12. Borrower Not Released; Forbearance By Lender Not a Waiver. Extension of the time for
payment or modification of amortization of the'sums sccuredby |hig Security Instrument granted by Lender to
Borrower or any Successor in Interest of Borrower shall not operate to release the liability of Borrower or any
Successors in Interest of Borrower. Lender shall not be requited to commence proceedings against any
Successor in Interest of Borrower or to refute to extend time for payment nr otherwise modify amortization of
tho sums secured by this Security Instrument by reason of any demand made by the original Borrower or any
Successors in Interest of Boreowbr. Any forbearance by Lender in exercising any right or remedy Including,
without limitation, Lender's acceptance of payments from third persons, entities or Successors in Interest of
Borrower or in amount* less than the amount then due, shall not be a waiver of or preclude the exercise of any
right or remedy.
12. Joint and Soveral liability; Co-tdgoeni; Successors and Assigns Bound. Borrower covenants and
agreea that Borrower's obligations rod liability shall be joint and several. However, any Borrower who
co-signs this Security Instrument but does nut execute the Note (a "co-signer"): (a) is co-signing this Security
instalment only to mortgage, grant and convey tho co-signer's interest in tho Property under tho terms of this
Security instrument; (b) Is nut personally obligated to pay the sums secured by this Security Instrument; and
(?) agrees that-Lender raid ntty other Borrower con agree to extend, modify, forbear or make any
accommodations with regard to the terms of this Security instrument nr the Note without the co-signer's
consent.

<SS|-«A<CAj (ort)7>

CHL(oaxts)

Pann 10 «Mo

25a

Form SODS 1/DI

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 40 of 46
*»

DOC tD #: 00012.0&7646601006
Subject to the provisions' of Section IS, any Successor in Interest of Bonower who assumes Borrower's
obligations under dus.Secunty Instniment in writing, and is approval by Leader* shall obtain an of Borrower’s
rights and. benefits under this Security instrument.- Borrower shall cot; be released from Borrower’s obligations
and liability under this Security Instrument unless Lender agrees to such release in Writing. *Ibe covenants and
agreements of ilii'a Security Instrument sttsli bind (except as provided in Section 20) and benefit the successors
and assign? of Lender.;
M. Loan Charge* Lender may charge 'Borrower fees for services performed in connection with
Borrower's defetilt, iftjr the purpose of guotbciing Lender’s interest in the BropOrty and rights under this
Security Instrument, including, bui not limited to, attorneys' fees- property ihspeepop and vatuodort fees: In
regard to raty other fees; the absence of express authority in. this Security Znslromfintto charge aspuciftc fee to
Borrower shall not be coiulrucd as a prohibition on the charging of such fee; Larger may hot charge fees thitt
are expressly prohibited by this Security Instnimenl or by Applicable Law.
If the Loan la subject to a law which sets maximum loan charges, and that law is finally interpreted so
that the interest or other loan charges collected or to be collected in connection with the Loan exceed the
pcrmiucdlimits, then: (a) any such loan charge shall be reduced by the amount necessary to reduce the charge
to the permitted limit;, and (b) any aims already collected from Borrower which exceeded permitted limits will
be refunded to Borrower. lender may Choose to mate this refund by redijcttigthc principal owed under the
Note.or by nuking a direct payment to Bonower. If a refund reduces principal, the reduction will be treated as
a partial prepayment withoutany prepayment charge (whether or not a prepayment charge is provided for
under, the- Note). Borrower’s acceptance of any such refund made by direct: payment to Bonower will
constitute.a waiver of any right of action Borrower might have arising out of such overcharge.
15. Ntiticcs. AJI notices given by Borrower or Lender in connection with this Security Instrument must
ha in writing: Any notice to Borrower in connection with this. Security Instrument shall be deemed to have
heat given to Bonower when mailed by first class moil or when actually delivered to Borrower's notice
address if sent by other means. Notice to any one Borrower shall constitute notice to all Borrowers unless
Applicable Law expressly requires otherwise, the notice address shall be the Property Address unless
Borrower has drsignated a substitute notice address by notice to Lender. Bonower shall promptly notify
Lender of Borrower's change of address' If Lender specifies a procedure for reporting Borrower's change of
address, then Borrower shall only report a change of address through that specified procedure. There may be
only one designated notice address under this Security Instmmcot at any one time. Any notice to Lender shall
be given fry delivering it or fry marling it fay first class mail to Lender’s address stated herein unless Lender has
designated Another Address by notice to Borrower. Any notice in connection with this Security Instrument
shall not be deemed to have been given to Lender until actually received by Lender, If any notice required by
this Security Instrument is also required under Applicable Law, the Applicable Law requirement will satisfy
the corresponding requirement u ndcr this Security Instrument
Id. Governing Law; Severability; Rules of Construction. This Security Instrument shall be governed
by federal law and the law of the jurisdiction in which Dio Property is located. All rights and obligations
contained In this Security Instrument are subject tn any requirements and limitations of Applicable Law.
Applicable Law might explicitly or implicitly allow the parties to agree by contract or it might he silent, but
such aitence bhall not be construed oh n prohibition against agreement by contract. In the event that any
provision or .clause of this Security Instrument or the Note conflicts with Applicable Law, such conflict shall
not affect other provisions of this Security Instrument or the Note which can be given effect without the
conflicting provision.
As used in this Security Instrument: (a) words of the masculine gender shall mean and include
corresponding neuter words Or words of the feminine gender; (b) words In the singular shall mean and Include
fhe plural and vice versa; and (c) the word “may'" gives sole discretion without tmy obllgmlon to take any
action.
17, Borrower’s Copy. Borrower shall be given one copy of the Nora and of this Security Instrument.
-AA(CA) (030)1

CHL (turns)

Pujjy H of 16

26a

Farm 3003 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 41 of 46
•" »

I I

DOC ID #: 00012087646601006

18. Transfer of the Property or a Beneficial. Interest in Borrower. As used in this Section 18,
‘Interest in the Property" raeansany legal or beneficial interest in theProparty, including, but nat limiiedto,
(hose beneficial interests trahsfetred in .a bond for deed, contract for deed, instaliments&les contract or escrow
agrceptent, the intent of which. >s the ttapsfer of title by Bonower at a future date to a purchaser.
If all army partof thepitfperty to any Interest inthe Property is sold or transferred for.if Bortotycris not
a natural jferitei and a. beneficial intercsi In Borrower is sold or transferred) wilhmitLender's prior written
consent. Lender may require immediate payment in foil of all sums, secured by this Security Instrument
However, this optionsbsll not he exerriEcd by Lenderif such exercise is prohibited by Applicable Lfiw.
If Lender exercises, this option, Lender shall give: Borrower notice of acceleration. The notice shall
provide a period of not less than 30 days from the date the notice is given in4accordance with Section IS
witliin whtch Borrowed must pay all sums secured-by this Security Instrument. If Borrower fails to pay these
sums' prior to the expiration of this period, Lender may invoke any remedies permitted by this Security
Instrument without further notice or demand an Borrower.

19. Borrower’s Right to Reinstate After Acceleration. If Borrower meets certain conditions, Bonower
shall have the right to have enforcement of this Security Instrument discontinued at tuty rime prior to the
earliest' o£ (a) five days before sale of the property pursuant-to any power of sale contained in this Security
Instrument; (b) such other period as Applicable Law might specify for the termination of Borrower's right to
reinstate; or (c) entry of a judgment enforcing this Security Instrument. Those conditions are that Borrower;
(a) pays Lender all sums which then would be due under, this Security Instrument and the Note os If no
aoccicratitoi lind occurred; (b) cures any default of any other covenants or agreements; (c) pays all expenses
incurred in enforcing this Security Instrument, including, but not limited to, reasonable attorneys’ fees,
property, inspection and valuation fees, and other fees incurred for the purpose pf protecting Lender’s interest
in (ho Property and rights under this Security Instrument; and (d) takes such action as Lender may reasonably
require to assure that Lender's interest in the Property and rights under this Security Instrument, and
Borrower's obligation to pay tire sums secured by this Security Instrument, shall continue unchanged. Lender
may require that Borrower pay .such reinstatement sums and expenses in one or more of the following forms,
as selected by Lender (u) cash; (b) money order,- (c) certified check, bank check, treasurer's check or cashier’s
check, provided any such check is drawn upon an institution whom deposits are insured by a federal agency,
instrumentality to entity;, or <d> Electitntic Funds Transfer. Upon reinstatement'by Borrower, this Security
Instrument and obligations Secured hereby shall remain folly effective as if no acceleration had occurred.
However, this right to relnstateshpll not apply in the case of acceleration under Section 18.
20. Sale of Note*, Change of Loan Servicer, Notice of Grievance. The Note or a partial interest in the
Note (together with this Security fostrumem) can be sold one or more times without prior notice to Borrower.
A sale might result in a change in the entity (known as the "Loan Servicer”) that collects-Periodic Payments
due under the Note and this Security Instrument and performs other mortgage loan servicing obligations under
tho Note, this Security Instrument, and Applicable Law. There also might be one or mare changes of the Loan
Servicer unrelated to a sale of the Note. If there is a change of the Loon Servicer, Borrower will be given
written notice of the change which will state the name and address of the new Loan Servicer, the address to
which payments should be made end any other mformasiun RHSPA requires in connection with .a notice of
transfer of servicing. If tlte Note is sold ami thereafter the Loan is serviced by a Loan Servicer other than the
purchaser of the Note, the mortgage loan servicing obligations to Borrower will remain with the Loan Servicer
or be transferred to a successor Loan Servicer and are not assumed by tho Note purchaser unless otherwise
provided by the Note purchaser.
Neither Borrower nor Lender may commence, join, or be joined to any judicial action (as either an
individual litigant or the member of a class) that arises, from the other party's actions pursuant to dfis Security
Instrument or that alleges that the other party has breached any provision of, or any duty owed by reason of,
this Security Instrument, until such Borrower or Lender has notified the other potty (with such notice given in
<%-e*<CA) (0207)

CHL (08/00)

Pup, ip of ta

27a

Form nos 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 42 of 46
«•

i i

*.

\

DOC JO »: 00012087646601006
compliance with the requirements of Section' 15) of such alleged breach and afforded the other patty hereto a
reasonable period after the giving of such notice to take corrective action. If Applicable Law provides a time
period which roust elapse before ccitainactioq can be taken, that thneperiod will be deemed to be reasonable
for proposes of this paragraph. 1110 hqiicp of acceleration and opportunity to cure given re Bonowerpunturmi
to Sectioh 22. and die scribe of acceleration given to Borrower ptdsuant to Section 1.8 shall bo deemed to
satisfy the rtoticeand opportunity totsko corrective action provirions ofthis Section 20.
21. 'Hazardous Substances. As used in this Secrimj 23: (a) *Hriia«loufi Substances" arc those substances
defined as Untie .of hazardous substances, pollutants, of pastes by BnvirimmsaisJ low and the- following
substances: gasoline, kerosene, other flammableor toxic petroleum products, toxic pesticides and herbicides,
volatile solvents, materials containing asbestos or formaldehyde, and radioactive materials; (b)
"Environmental Law" means federal laws and laws of the jurisdiction where, the Property is located that nclnte
to health, safety or environmental protection; (c) "Environmental Cleanup" includes any response action,
remedial action, or removal action, as defined in Environmental Law; and (d) an "Environmental Condition”
means a condition that can cause, contribute to, or otherwise trigger an Environmental Cleanup.
Borrower shall not cause or permit the presence, use, disposal, storage, or release of any Hazardous
Substances, or threaten to release any Hazardous Substances, on or in the Property. Borrower shall oot do, nor
atlo'w anyone else to do, anything affectrngihe Property (a) that is in violation of any Environmental Law. (b)
which creates an Environmental Condition,' or (e) which, due to (he presence, use, or release of a Hazardous
Substance, creates a, condition, that- adversely affects die value of the Property. The preceding two sentences
shall not apply to the presence, use, or storage on tho Property of small quantities of Hazardous Substances
that are generally recognized to.be appropriate to normal residential uses and to.maintenance of the Property
(including, but not limited to, hazardous substances in consumer products).
Bprrowef shall promptly give tender written notice of (a) any investigation, dries, demand, lawsuit or
other action by any governmental or regulatory agency or private party involving the Property and any
Hazardous Substance or Environmental Law of which Borrower has actual know!edge, (b) any Environmental
Condition, including but not limited to, any spilling, (earing, discharge, release or threat of release of any
Hazardous Substance, and (c) any condition caused by the presence, use or release of a Hazardous Substance
which adversely affects’ the value of the Property. If Borrower fcama, or la notified by any governmental or
regulattuy authority, or any private party, that any removal or other remediation of any Hazardous Substance
affecting the Proparty is necessary. Borrower shall promptly take all necessary remedial actions in accordance
with Environmental Law. Nothing herein shall create any obligation on Lender for an Environmental Cleanup.
NON*UNIFORM COVENANTS. Borrower and Lender further covenant and agree as follows:
22. Acceleration; Remedies. Lender shall give notice to Borrower prior to acceleration following
Borrower’s breach of any covenant or agreement In this Security Instrument (but not prior to
acceleration under‘Section 18 unless Applicable Law provides otherwise). The ootieo shall specify: (u)
the deftmll;-(b) the action required to cure the default; (c) a date, not less than 30 days from the date the
notice Is given to Borrower, by which the default roust be cured; and (d) that failure to cure Ibc dcibuH
on or before tho dote specified In tho notlco may result In acceleration of the same secured by this
Security Instrument and sale of tho Property. The notice shall farther inform Borrower of tho right to
reinstate after acceleration and the right to bring a court action to assert tho nomozistcnce of a default
or any other defense of Borrower to acceleration and sale. If tho default is not cured on or before the
date specified in the notice, Lender at Its option may require immediate payment in full of
all sums secured by this Security Instrument wilbuul further demand and may Invoice the power of sale
and any other remedies permitted by ‘Applicable Law. Lender shall be entitled In collect all expenses
• incurred In pursuing the remedies provided In this Section 22, including, but not limited to, reasonable
attorneys' fees and casts of title evidence,

<8|-aA(CA) (0207)

CXL (oasis) ‘

Poe° is one

28a

Form sods 1/01

Case 5:18-cv-02869-LHK Document 1 Filed 05/16/18 Page 43 of 46
•• '• *

..I't

I

!

DOC .ID #: 00512087646601006

If Lender invokes (fee power of salt,.Lender shall execiitcor cause Trustee to execute a written
notice of the occumence of an event of default and of Lender*? election to cansefhe Property to be soM.
Trustee, shell cause this; notice to be recorded to each county to which any part of the Property is
located. Lender or Trustee shaD mail copies of the notice ^ prescribed by Appb'cahleLaw to Borrower
and to die otter person* prescribed by Applicable-Law, Trustee shall give public notice of sale to the
persons and in the taatuMr prescribed by Appticable Law, After the time required by Applicable Law,
Ttnitee, withoutdemand on Borrower, Shan sell the Property at pitoHC snctioa to the highest bidder at
the time end place and tuider the terms designated in toe, notice ofsalein one or rnoreparoels nod in
any order Trustee determines. Trustee may postpone sale of all or any parcel of .the Property by pnbh'c
snnbhncement. at the tithe-and plats of any previously scheduled sale. Lender or its designee may
purchase the Property ot any sale.
Trustee shall deliver to the porchaser Trustee'* deed conveying,the Properly without any covenant
or warranty. exprcsscd or Implied. The recitals In the Trustee's deed shall Iteprima Cade evidence of-the
truth of the statements made therein. Trustee shall apply the proceeds of the sale in ihe following order:
(a) to nil expenses of the sale; including, bnt not limited to, reasonable Trustee's and attorneys' foes} (b)
to nil sums secured by: this Security Instrument; and (c) any excess to. the person or persons legally
entitled to it
23. Reconveyance. Upon payment of-all sums secured by this Security Instrument, Lender shall request
Trustee to. reconyey th'c Property and shall surrender, this Security Instrument and all notes evidencing debt
secured by this Security Instrument to Trustee. Trustee shall rcconvcy the Property without warranty to the
person or persons legally entitled to it Lender may charge such person or persons a reasonable fee for
recqpvdyiing the Property, but only if the fee is paid to a third party (such as die Trustee) for services rendered
and the charging of the fee is permitted under Applicable Law. If the foe charged’does hot exceed the foe ret
by Applicable Law, the fee is conclusively presumed to be'reasonable.
24. Substitute Trustee, Lender, ar its. option, rtt*y from time to time appoint o successor trustee to any
Trustee appointed, hereunder by tut instrument'executed ondacknowledgcd by tender and recorded In the
,Office of the Recorder, of the county in which ihePropcrty is located. The instrument shall contain the name of
tha original Lender, Trustee apd Sorrower, the book and page where this Security Instrument is recorded and
the nahto and address of the successor "trustee. Without conveyance of too Property, the successor trustee shall
succeed to oil the title, powers and duties conferred upou die Trustee herein and by Applicable Low. This
procedure for substitution of trustee shall govern ti> the exclusion of all other provisions for substitution.
, 23. Slaurmoat qf Obligation Fee. Lender may" collect ft fee not to exceed the maximum amount
permitted,by Applicable Law for himishing tho statement of obligation as provided by Section 2543 of the
Civil Code of California.
.■?

4%-M(CAj{a207)

CHL(oares)

PaO»14oJ16

29a

Perm W0B 1 n%

*

TITLE 28. UNITED STATES CODE
SECTION 1332(a) AND (c)
(a)The district courts shall have original jurisdiction of all civil actions where the matter in controversy exceeds the sum or value
of $75,000, exclusive of interest and costs, and is between—
(1) citizens of different States;
(2) cit izens of a State and citizens or subjects of a foreign state, except that the district courts shall not have original jurisdiction
under this subsection of an action between citizens of a State and citizens or subjects of a foreign state who are lawfully admitted
for permanent residence in the United States and are domiciled in the same State;
(3) citizens of different States and in which citizens or subjects of a foreign state are additional parties; and
(4) a foreign slate, defined in section 1603(31 of this title, as plaintiff and citizens of a State or of different States.
(c)For the purposes of this section and section 1441 of this title—
(1)a corporation shall be deemed to be a citizen of every State and foreign state by which it has been incorporated and of the State
or foreign state where it has its principal place of business, except that in any direct action against the insurer of a policy or
contract of liability insurance, whether incorporated or unincorporated, to which action the insured is not joined as a partydefendant, such insurer shall be deemed a citizen of—
(A) every State and foreign state of which the insured is a citizen;
(B) every State and foreign state by which the insurer has been incorporated; and
(C) the State or foreign state where the insurer has its principal place of business; and
(2) the legal representative of the estate of a decedent shall be deemed to be a citizen only of the same State as the decedent, and
the legal representative of an infant or incompetent shall be deemed to he a citizen only of the same State as the infant or
incompetent.
TITLE 28. UNITED STATES CODE
SECTION 1441(b)
(b)REMOVAL Based on Diversity of Citizenship.—
(1) In determining whether a civil action is removable on the basis of the jurisdiction under section 1332(a) of this title, the
citizenship of defendants sued under fictitious names shal l be disregarded.
(2) A civil action otherwise removable solely on the basis of the jurisdiction under section 1332(a) of this title may not be
removed if any of the parties in interest properly joined and served as defendants is a citizen of the State in which such action is
brought.
FEDERAL RULE OF CIVIL PROCEDURE 11.
(a) Signature. Eveiy pleading, written motion, and other paper must be signed by at least one attorney of record in the attorney's
name—or by a party personally if the party is unrepresented. The paper must state the signer's address, e-mail address, and
telephone number. Unless a rule or statute specifically states otherwise, a pleading need not be verified or accompanied by an
affidavit. The court must strike an unsigned paper unless the omission is promptly corrected after being called to the attorney's or
party's attention.
(b) Representations to the Court. By presenting to the court a pleading, written motion, or other paper—whether by signing,
filing, submitting, or later advocating it—an attorney or unrepresented party certifies that to the best of the person's knowledge,
information, and belief, formed after an inquiry reasonable under the circumstances:
(1) it is not being presented for any improper purpose, such as to harass, cause unnecessary delay, or needlessly increase the cost
of litigation;
(2) the claims, defenses, and other legal contentions are warranted by existing law or by a nonfirivolous argument tor extending,
modifying, or reversing existing law or for establishing new law;
(3) the factual contentions have evidentiary support or, if specifically so identified, will likely have evidentiary support after a
reasonable opportunity for further investigation or discovery; and
(4) the denials of factual contentions are warranted on the evidence or, if specifically so identified, are reasonably based on belief
or a lack of.

30a

■If

.1.

*

NEW YORK TAX LAW
SECTION 203-a
1. On or before the last day of March, June, September or December in each calendar year, the tax commission may certify and
transmit to the department of state a list containing the names of any or all such stock corporations and corporations formed for
profit, other than corporations formed by or under special acts and other than banking, insurance and railroad corporations, as
have not filed reports required under this article during the period of two consecutive years next preceding the date of such
certi fication or as have been delinquent in the payment of taxes for any two years duly assessed pursuant to this article.
2. If the secretary of state, upon comparing the names so certified with his records, shall discover error, he may return the list to
the tax commission for correction.
3. The secretary of state shall make a proclamation under his hand and seal of office, as to the corporations whose names are
included in such list as finally corrected, declaring such corporations dissolved and their charters forfeited pursuant to the
provisions of this section. He shall file the original proclamation in his office and shall publish a copy thereof in the state
bulletin no later than three months following recei pt of the list by him.
4. Upon the publication of such proclamation in the manner aforesaid, each corporation named therein shall be deemed
dissolved without further legal proceedings.
5. The secretary of state shall mail a copy of the state bulletin containing such proclamation to the clerk of each county in the
state. The county clerk shall file the copy without charge but need not record it.
6. The names of all corporations so dissolved shall be reserved for a period of three months immediately following the
publication of the proclamation, and during such period no corporation shall be formed under a name the same as any name so
reserved or so nearly resembling it as to be calculated to deceive, nor shall any foreign corporation, within such period, be
authorized to do business in this state under a name the same as any name so reserved or so nearly resembling it as to be
calculated to deceive.

31a

